                                                                                       Legal Services Corporation
                                                                                       Office of lnsoector General




                                            MEMORANDUM



TO:             Helaine Barnett
                President

FROM:           Ronald D. Merrymaw
                Acting Assistant Inspector General for ~ u d i t

SUBJECT:        Audit of LSC's Office Space Needs

DATE:           September 28, 2005


Attached is our final report on the audit of LSC's office space needs. Your comments on
the draft of this report are included in Appendix II.

The report makes seven recommendations concerning the need for LSC to reassess its
current space needs. The OIG considers all seven recommendations significant, therefore
requiring OIG concurrence before closure. Consequently, the OIG requests written
confirmation when corrective actions are completed.

If you have any questions or need additional information, please contact me on extension
1663. Thank you and your staff for the cooperation and courtesy extended to the OIG
auditors.

Attachment
cc::   Victor Fortuno
       Vice President for Legal AffairsIGeneral CounselICorporate Secretary

       Charles Jeffress
       Chief Administrative Ofticer




                                                                              3333 K Street, NW, 3rd Floor
                                                                              Washington, DC 20007-3522
                                                                              Phone 202.295.1500 Fax 202.337.6616
                                                                              www.oig.lsc.gov
LEGAL SERVICES CORPORATION
OFFICE OF INSPECTOR GENERAL




  AUDIT OF LSC's
OFFICE SPACE NEEDS


     Report No. AU05-07
      September 2005
                                    TABLE OF CONTENTS
                                                                                             ...
EXECUTIVE SUMMARY ...........................................................................III

INTRODUCTION ....................................................................................... 1

BACKGROUND ..........
                    ............................................................................
                                                                                            1

OBJECTIVES. SCOPE. AND METHODOLOGY .......................................3

RESULTS OF AUDIT .................................................................................
                                                                                              4

  OFFICE SPACE NEEDS ........................................................................ 5
   Recommendation No. 1 .......................................................................6
   Management's Comment on Recommendation No.1 ..........................6
   OIG Evaluation of Management's Comment.................................6

     Recommendation No. 2 .......................................................................
                                                                                              6
     Management's Comment on Recommendation No. 2 .........................7
     OIG Evaluation of Management's Comment .................................7

     Recommendation No. 3 .......................................................................7
     Management's Comment on Recommendation No. 3 .........................7
     OIG Evaluation of Management's Comment .......................................7

     Recommendation No. 4 .......................................................................
                                                                                               7
     Management's Comment on Recommendation No. 4 .........................7
     OIG Evaluation of Management's Comment .......................................7

  PROJECTED STAFFING LEVELS .........................................................8
   Recommendation No. 5 .......................................................................9
   Management's Comment on Recommendation No. 5 ......................... 9
   OIG Evaluation of Management's Comment................................. 9

    Recommendation No.6 ......................................................................
                                                                                           10
    Management's Comment on Recommendation No. 6 .......................10
    OIG Evaluation of Management's Comment.................................10

    Recommendation No. 7 ..................................................................... 10
    Management's Comment on Recommendation No. 7 ....................... 10
    OIG Evaluation of Management's Comment.................................10
                          TABLE OF CONTENTS
                              CONTINUED


SUMMARY OF MANAGEMENT'S COMMENTS .....................................11

SUMMARY .EVALUATION OF MANAGEMENT'S COMMENTS ..........12

APPENDIX I .OIG DETAILED RESPONSE TO
              MANAGEMENT'S COMMENTS ..................................1-1

APPENDIX II .MANAGEMENT'S COMMENTS ....................................11-1
                              EXECUTIVE SUMMARY


What OIG Found

The amount of space LSC is leasing may be more than it needs to accomplish its
mission. There is no evidence that space studies performed before LSC moved to its
current location considered any guidelines for the appropriate amount of space LSC
should lease to meet its needs. There is no evidence that LSC space studies
considered limiting its space requirements to an overall average square foot per
employee or benchmarked against similar organizations. As a result, LSC could be
overpaying for its space needs as much as $7 million over LSC's 10-year lease.

What OIG Recommends

The OIG recommends that LSC commission an independent, objective, space needs
assessment based on LSC's mission. Should LSC's space needs exceed the GSA-
recommended average for office space use, then LSC should document a direct
mission requirement for the additional space and corroborate it by benchmarking with
organizations with similar missions. Should this assessment conclude that LSC has
more space than is needed, then LSC management should sublease or redesign LSC's
space to effectively and economically meet LSC's mission.

How Manaqement Responded

Management disagreed with our analysis but generally agreed to implement the
recommendations. Management's comments on our findings and our detailed
evaluation of management's comments can be found at Appendix I. Management's
comments on our recommendations and our evaluation of management's comments
can be found after each recommendation. Appendix II contains management's
comments in their entirety.
                                   INTRODUCTION


The Office of Inspector General (OIG) initiated this audit based on work performed in
our review of the financial implications of the Legal Services Corporation's (LSC's)
lease. The lease review raised the issue of whether the amount of space currently
leased is justified based on the amount of office space needed for LSC to accomplish its
mission.

In conducting this review, we used GSA guidelines to help us evaluate the
reasonableness of LSC's office space. Although LSC receives essentially all of its
funds through Congressional appropriations, it is not required to follow GSA space
guidelines. However, the guidelines provide a reasonable, business-like approach in
determining space needs for the following reasons. First, the guidelines were
developed using a broad base of both private industry and federal agencies. Second,
the guidelines state that management should articulate specific mission requirements,
validated through benchmarking with organizations with similar missions, before
exceeding the recommended square footage per person. Third, because space costs
usually represent an organization's second largest administrative cost, the guidelines
recommend that space objectives be incorporated into the organization's strategic
planning process. The amount of space recommended in the guidelines does not
restrict an organization from obtaining the space needed to accomplish its mission.
Rather, the space recommended acts as a trigger point to ensure that a reasonable,
business-like decision process is followed to justify and validate the need for additional
space above the recommended guideline.

Currently, LSC has a 10-year lease for 45,000 square feet at $38 per square foot or
$1.71 million per year. LSC is in its third year of the lease.



                                   BACKGROUND


LSC's space planning for a possible alternative to its previous location at 750 First
Street, N.E. began in 1998. Since that time, there have been a number of space
studies and decisions that have impacted the amount of space LSC determined it
needed. A list of some of the key ones follows:

      May 1999 -- The architectural firm of CB Richard Ellis prepares a strategic plan
      that focuses on the occupancy costs for lease versus buy options at various
      locations, including remaining in then currently leased space at 750 First Street,
      N.E.
       June 1999 - LSC contracts with the architectural firm of VOA Associates,
       Incorporated, to perform a space requirements program. Based on LSC input,
       VOA reports that LSC will require approximately 40,000 square feet in 5 years for
       a projected staff level of 122.

   o   April 2002 - The LSC Board of Directors passes a resolution authorizing LSC to
       lease up to 45,000 square feet at 3333 K Street, N.W.

       May 2002 - Friends of LSC contracts with Mancini Duffy for services in
       connection with LSC's relocation to 3333 K Street, N.W.

       July 2002 - LSC signs a 10-year lease with Friends of LSC for 45,000 square
       feet at 3333 K Street, N.W.

       August 2002 - Mancini Duffy completes the requirements phase of its services
       and, based on LSC input, documents LSC's requirement for 40,313 square feet
       at 3333 K Street, N.W. as of May 2005 for a projected staff level of 132.

       November 2002 - LSC Board of Directors authorizes 4,000 additional square
       feet for a total of 49,000 square feet (not subsequently leased).

       June 2003 - LSC occupies 3333 K Street, N.W.

       January 2004 - The LSC Board of Directors authorizes LSC management to
       explore alternatives with the landlord with respect to leasing an additional 2,521
       square feet on the fourth floor at 3333 K Street, N.W. and requires management
       to provide the Board with a needs justification for such additional space (LSC
       subsequently determined that there was no need based on its assessment).

Since LSC receives Congressionally-appropriatedfunds, we researched GSA space
usage standards applicable to federal agencies. A GSA stud conducted in 1997 and
                                                                  Y
updated in 2002 provides useful guidance on space planning . The study focused on
space management priorities and practices in the private and public sector,
benchmarked against public and private organizations, and included information on
industry and government space allocation standards. The report on this GSA space
use study states that:




 On September 30, 1997, GSA's Office of Governmentwide Policy published its report entitled
Office Space Use Review: Current Practices and Emerging Trends. I n December 2002, that off ice
published an update entitled, Space Use Update 2002.
-   Space costs are the second biggest administrative cost after personnel costs and
    should be managed2. The report includes a recommendation that space use


-
    objectives be incorporated into organizations1strategic planning processes.

    The private sector and the Federal Government are moving away from strict space
    standards based on pay level or employee position. Instead, factors to be weighed
    in forecasting and allocating space needs should be such things as space


-   availability, corporate culture, mission, job requirements, cost, and efficiency.

    Space per person should still be monitored in allocating and planning space usage.
    Based on its analysis of private sector standards and trends, GSA concluded that
    230 rentable square feet per person is an appropriate Government-wide average for
    space use3.The report includes the following recommendation:

               Federal agencies that exceed the recommended overall Government-wide
               average for office space use should ensure that agency mission mandates
               a direct requirement for higher per capita office space allocation. Once
               this link is established, agencies need to benchmark their office space to
               the allocation of other Government and private organizations with similar
               mission and needs. If the higher average cannot be directly linked to
               agency mission and corroborated by benchmarking with similar
               organizations, then the agency should seriously consider a strategy to
               bring office space use per person down closer to the recommended
               overall average of 230 rentable square feet per person.

               OBJECTIVES, SCOPE, AND METHODOLOGY


The objective of the audit was to determine whether the amount of space currently
leased is appropriate for LSC to accomplish its mission. The audit work was performed
from March to August 2005. The scope of the audit included space planning activities
from 1999 to June 2005. The audit was conducted in accordance with Generally
Accepted Government Auditing Standards.

In order to meet the objective of the audit, we performed the following steps:




  For the nine-month period of fiscal year 2005 ending June 30,2005, LSC's occupancy costs
(including OIG's) were t h e second biggest management and administration cost representing over
ten percent of the total (including OIG) management and administration costs incurred.

  The 230 square foot average is based on the Building Owners and Managers Association (BOMA)
standard for measuring off ice space.
                Reviewed past LSC space studies and assessments.

                lnterviewed LSC officials.

                lnterviewed officials at the General Services Administration (GSA) and the
                U.S. Postal Service on space management issues.

                Interviewed space utilization experts recommended by GSA as well as the
                space utilization expert who worked on the space allocation plans for
                3333 K Street.

                Researched pertinent space utilization studies, standards, guidelines, and
                recommendations.

                Inventoried LSC work spaces, meeting spaces, and support spaces

                Reviewed LSC conference room logs.

                Reviewed LSC budget submissions.



                                     RESULTS OF AUDIT
The amount of space LSC is leasing may be more than it needs to accomplish its
mission. LSC is currently leasing over 40g4 square feet per employee. Using the GSA
guidelines of 230 square feet per employee, LSC is leasing approximately 19,700~more
square feet than the GSA-recommended government-wide average. We found no
indication that LSC has identified a direct requirement for a higher per capita office
space allocation, nor that LSC corroborated through benchmarking that the additional
space is reasonable. If LSC does not need the additional space, LSC could be

    For the number of LSC employees, our calculation used a s t a f f size of 110. According t o LSC's
2006 budget request, t h e number of s t a f f positions shown f o r 2005 was 103 and t h e request f o r
2006 was 109. LSC management reports that it currently (August 2005) has 100 permanent s t a f f ,
10 fully-funded vacant positions, 3 temporary employees, and 5 interns. However, we elected t o use
t h e 110 figure f o r the staff size since the number of employees, including temporary employees,
interns, and volunteers for the past 18 months has not exceeded t h e 110 level.

  AS stated in footnote 3, the GSA guideline of 230 square feet per person is based on the Building
Owners and Managers Association (BOMA) standard of measurement. LSC's leased space of 45,000
square feet is based on the Greater Washington Commercial Association of Realtors (GWCAR)
standard of measurement. Converting the GWCAR measurement t o BOMA will result in a higher
number than 19,700. However, the exact conversion rate is subject t o debate and would not alter
the conclusions and recommendations presented in this report. Therefore, we did not convert the
GWCAR standard t o t h e BOMA standard.
overpaying for its space needs up to $748,000 annually and $7.48 million over the life of
the 10-year lease.

A contributing factor for the potential excessive space was that LSC1s2002 space plan
for 3333 K Street included a final staff projection that was not realized. The space plan
included a staff projection for 2005 that was 20 percent higher than LSC1s(then)
existing staff level of 110. Budget documents available at the time did not include the
projected staffing increases that were included in the space plan.

Office Space Needs

We found no evidence that space studies performed before LSC moved to its current
location considered GSA or other similar guidelines for the appropriate amount of space
LSC should lease to meet its needs. As explained in the background section, GSA
guidelines recommend that using 230 square feet per employee is the appropriate
government-wide average for office space use. GSA recommended that specific direct
mission requirements be identified for space exceeding the average and benchmarking
should be performed with similar organizations to assure the allocation of space is
reasonable. We could not find any evidence that LSC studies considered limiting its
space requirements to an overall average square foot per employee, documented a
direct requirement for space in excess of the average, or benchmarked against other
similar organizations.

In June 1999, LSC contracted with the architectural firm of VOA Associates,
Incorporated, to perform interior design services. The contract required VOA to
ascertain and document LSC's requirements for its operations, such as those for
existing and projected staff, space, furniture, furnishings and equipment. VOA provided
questionnaires to LSC to obtain this information. Based on information in the
questionnaires, VOA developed a plan that showed LSC required approximately 40,000
square feet in 5 years for a projected staff level of 122. The scope of services for this
contract did not include benchmarking or the application of specific space utilization
guidelines or standards to determine an appropriate amount of space to meet LSC
needs.

In May 2002, Friends of Legal Services Corporation contracted with the architectural
design firm of Mancini Duffy to perform design services for the relocation of LSC's office
to 3333 K Street, N.W. The contract was entered into after the LSC Board passed a
resolution authorizing up to 45,000 square feet at the 3333 K Street site. Mancini Duffy
also used questionnaires to LSC management to obtain information on LSC
requirements. Based on this information in the questionnaires, Mancini Duffy prepared
its final requirement plan for LSC for 40,313 feet by 2005 for a staff size of 132. Mancini
Duffy's design director on the project informed the OIG that LSC management declined
Mancini Duffy's recommendation to do a benchmarking study or apply specific space
utilization standards.
We do not know how LSC concluded that 45,000 square feet was necessary to
accomplish LSC's mission. Management officials did state that there was a desire to
ensure that everyone had the same or better space at 3333 K Street, N.W. as they did
at 750 First Street, N.E. However, based on the application of GSA guidelines, LSC
may be paying as much as $748,000 per year and $7.48 million over the course of the
10-year lease for space that is not justified by mission requirements and validated
through benchmarking.

Recommendations

The LSC President should implement the following recommendations.

Recommendation No. 1. Commission an independent, objective, space needs
assessment based on LSC's mission.

Manaqement's Comments on Recommendation No. 1

"LSC disagrees with the recommendation to commission an independent space needs
assessment. LSC commissioned outside space needs analyses in 1998,2000 and
2002. The independent firm hired in 2002 assisted in space planning for the current
building. Using these previous analyses as guides, LSC will conduct an in-house
review of its space needs based on its mission."

OIG Evaluation of Manaqement's Comment on Recommendation No. 1

Management's comments are responsive to the intent of the recommendation. The OIG
continues to believe that an independent and objective assessment of LSC's space
needs by qualified office space professionals is the better approach to resolving LSC1s
space needs. Even though the OIG has reservations about the ability of LSC
management to conduct an objective, independent space needs study, we are not
elevating this recommendation for resolution and instead will conduct a detailed follow-
up audit of the in-house review that management has stated it will conduct.

The OIG, however, cautions against using the past space studies as guides of the in-
house review. As stated in our report, the past studies were not space needs studies
and as such did not articulate a valid mission requirement, did not include
benchmarking, and did not apply specific space utilization guidelines or standards to
determine an appropriate amount of space to meet LSC needs based on its mission.

Recommendation No. 2. Document LSC's direct mission space requirement, and
corroborate this requirement by benchmarking with organizations with similar missions
should LSC determine that more than 230 rentable square feet of space per person is
needed.
Management's Comments on Recommendation No. 2
"After documenting its mission space requirements, LSC will benchmark with
organizations with similar missions and similar staffing, as recommended by the federal
government's General Services Administration (GSA)."

OIG Evaluation of Manaaement's Comments on Recommendation No. 2

Management's comments are responsive.

Recommendation No. 3. Should the results of the needs assessment indicate excess
space, sublease or redesign LSC's space to effectively and economically meet LSC's
mission.

Manaaement's Comments on Recommendation No. 3
"Should LSC determine that it has excess space, LSC will seek to sublease space as
LSC has done this year. However, significant redesign of the existing office space is
unlikely to be economically viable. Modest modifications to space, such as removing a
wall, modifying lighting and HVAC controls, and building a new partition, are feasible
and were done in the area subleased this year. However, major redesign of the space
at 3333 K Street, NW is not anticipated."

OIG Evaluation of Manaaement's Comments on Recommendation No. 3

Management's comments are responsive. However, the OIG cautions management
against allowing preconceived notions regarding the efficacy of subletting additional
space to influence its decision making. Decisions concerning changes to the existing
configuration should be based on objective, informed cost-benefit analyses.

Recommendation No. 4. If savings are gained by reducing LSC's space, determine
whether such savings can be redirected for other purposes such as providing more
funding to LSC grantees.

Manaaement's Comments on Recommendation No. 4
"If savings are generated by reducing space, the savings will be appropriately
redirected. However, by law, as the OIG should be aware, LSC may not move funds
from one account, such as the Management and Administration account from which the
rent is paid, to another, such as the Basic Field Program account which provides
funding to LSC grantees, without Congressional action."

OIG Evaluation of Manasement's Comments on Recommendation No. 4

Management's comments are responsive. As discussed with LSC management, the
OIG is fully aware of the requirement to obtain Congressional approval to move funds
between accounts.
Projected Staffing Levels

The space plan for 3333 K Street included a projected staff level figure for space
planning purposes that was 20 percent higher than its then (2002) existing staff. The
budget documents at the time the space plan staffing estimate was made did not
support any increase in staff, and, in fact, the staff increases did not occur. As a result,
at the time of our June 13,2005 inventory of work spaces, 28 (22 percent) of 130 work
spaces were vacant. (Seventeen of these work spaces were private offices and 11
were cubicles. However, eight staff who were supposed to be housed in cubicles
according to the space plan were occupying otherwise vacant offices.)

LSC is taking positive steps to address some of the vacant work spaces. LSC officials
stated that because of budget concerns, a number of cost-saving measures need to be
taken. These measures include relocating some staff on the first floor to the third floor
and making space on the first floor available for sub-leasing. As a result, when this
effort is completed, LSC would no longer have six vacant work spaces and one vacant
file room bringing the number of vacant work spaces down to 22.

The primary reason for the number of vacant work spaces was that the size of the work
force did not increase as projected. LSC projected that its staff size would increase by
over 12 percent in 2003 and by a total of 20 percent by 2005. The staff size projections
were developed though questionnaires that Mancini Duffy sent to each Office Director.
Directors were requested to identify current staff and space requirements as well as
projected staff and corresponding future space requirements. Based on the information
in these questionnaires and follow-up interviews, Mancini Duffy then submitted a
detailed plan to LSC in August 2002. The plan identified the work space, support
space, and meeting space for staff levels projected at 2003 and 2005. As shown in the
following comparison with staff positions in approved budgets, the staff size did not
increase as projected.

                                       Staff
Date                   Projected       Positions       Exceeded        I   Proiected Sq. Ft.
June 2002                              110             --              I      36,OI 6
May 2003               124             110             12%             I      38,863
May 2005               132             1l o 6          20%             I      40,313



   According t o LSC's 2006 budget request, t h e number of staff positions shown f o r 2005 was 103
and t h e request f o r 2006 was 109. LSC management reports t h a t it currently (August 2005) has
100 permanent s t a f f , 10 fully-funded vacant positions, 3 temporary employees, and 5 interns.
However, we elected t o use t h e 110 figure f o r t h e staff size since t h e number of employees,
including temporary employees, interns, and volunteers for t h e past 18 months has not exceeded
t h e 110 level and because this was t h e staff size in 2002 when t h e space plan was completed.
Moreover, staff projections for space planning purposes differed from those for budget
purposes. The 2003 budget request for LSC had already been submitted to Congress
by March 2002 requesting a staff of I10, not 124. While the process for projecting staff
sizes differed from the process for preparing the budget request and may partially
explain the differences, some of the same management officials were involved in both
processes. As a result of the staff levels not increasing as projected, LSC's space
needs, and related lease costs, may be more than LSC needs to accomplish its
mission.

Recommendations
The LSC President should Implement the following recommendations.

Recommendation No. 5. Develop and document a realistic staff level projection for the
next 5 years to use for space needs assessment purposes.

Management's Comments on Recommendation No. 5

"LSC, as part of its budgeting and strategic planning processes, does make staffing
projections. Any projections made by LSC are subject to funding decisions made by
Congress. A "realistic" staff level projection for the next five years is an unrealistic
expectation when trying to project Congressional funding five years out. LSC made
such projections five years ago and used them in planning for office space.
Congressional funding did not allow the staff projections to be met. The OIG space
audit both criticizes LSC for planning for space based on those projections and asks
LSC to make projections for the next five years. While LSC will be making staff
projections, LSC does not expect to be criticized in future OIG reports for using
projections, reasonable at the time, but for which Congress does not provide funding in
later years."

OIG Evaluation of Manaqement's Comments on Recommendation No. 5

Management's comments are responsive. However, the OIG is concerned that LSC
management has yet to acknowledge the inconsistency between its staff projections for
space planning purposes and its budget submission to Congress even though some of
the same senior management officials were involved in both. LSC1sstaff level
projections were not in agreement with the budget request submitted to Congress
several weeks earlier and were not reasonable based on all the facts known at the time.
For example, in November, 2001, a senior LSC management official stated in a Friends
of LSC Board of Directors meeting that the White House had reported that LSC's
funding will stay level for the next few years. Factoring that information into LSC1s
space planning estimate, instead of forecasting a 20 percent staff increase, may have
resulted in a more accurate staff level estimate and a reduced need for space. The OIG
is hopeful that future space projections will be based on all available information and will
be consistent with its budget submissions.
Recommendation No. 6. Ensure that the processes for developing space needs,
staffing levels and budget are fully coordinated and reflect the same information.

Manaqement's Comments on Recommendation No. 6
"The LSC processes for developing space needs, for projecting staff levels, and for
preparing budget requests are being fully coordinated this year and will be so in the
future as well."

OIG Evaluation of Manaaement's Comments on Recommendation No. 6

Management's comments are responsive.

Recommendation No. 7. Incorporate space planning objectives into LSC's strategic
planning process.

Manaqement's Comments on Recommendation No. 7

"Space planning objectives are being incorporated into the LSC strategic planning
process."

OIG Evaluation of Manaqement's Comments on Recommendation No. 7

Management's comments are responsive.
                 SUMMARY OF MANAGEMENT'S COMMENTS


A summary of managements comments are presented below. The full text of
management comments can be found at Appendix I I .

Management generally agreed with all recommendations. However, management took
exception to portions of the audit report and the analysis conducted by the OIG and
stated, "The [OIG] analysis contains three major errors and several inappropriate or
incorrect references.
                    JJ




Management further stated that:

      LSC's executive leadership is committed to the efficient and effective
      management of the Corporation, including an economical and efficient use
      of office space. To that end, LSC has been examining its use of space at
      3333 K Street since early 2004. During the course of that review, LSC
      has consolidated offices and sublet 2,139 square feet. LSC will continue
      to review its space needs, consolidate where appropriate, and sublet
      when possible.

Management concludes their comments by stating the following:

      LSC will continue to follow good management practices with respect to
      space planning and space utilization. LSC's response and planned
      actions with respect to the individual recommendations are set forth at the
      outset.

      However, the flaws in the audit's analysis are troubling. By not
      benchmarking LSC against appropriate organizations, the OIG creates an
      unrealistic expectation of the appropriate space standard for LSC. Afier
      comparing LSC to the GSA guideline, then using incorrect measures of
      space occupied and number of staff, the OIG audit asserts that LSC may
      be occupying "excessive spaceJ' and making an "overpayment" of rent.
      These assertions are unwarranted and based on significant exaggerations
      of the facts.
              SUMMARY       - EVALUATION OF MANAGEMENT'S
                                    COMMENTS

Management comments, though generally agreeing with all recommendations, do not
accurately represent the contents of the OIG's report; do not accurately represent how
the GSA guidelines were used; and cast doubt on whether management can, without
independent, professional assistance, fairly and objectively evaluate its space needs.
Rather than addressing the main issue brought forth in the report--that LSC had not
conducted a proper space needs analysis and the amount of space being leased may
exceed mission requirements, LSC management attempted to minimize the finding by
incorrectly claiming that the OIG report contained "major errors" and "significant
exaggerations of fact" and attempted to justify the need for the current space, without
conducting a valid space needs study.

The overriding issue is that LSC management has not employed recognized guidelines
in determining its space needs. Lacking that, it is reasonable to use GSA guidelines as
a starting point since LSC headquarters funding is supplied by Congress using taxpayer
monies. Should LSC go above the 230 square feet used as a baseline by GSA, then
the organization should first articulate a valid mission need and confirm the mission
need through benchmarking. LSC has exceeded the suggested 230 square feet and
has neither satisfactorily articulated a mission requirement nor benchmarked with
organizations with similar missions.

The OIG's detailed response to management's comments are included in Appendix I
                APPENDIX I


DETAILED RESPONSE TO MANAGEMENT'S COMMENTS
                                                                            APPENDIX I

             DETAILED RESPONSE TO MANAGEMENT'S COMMENTS

       Manaqement Comments                     Evaluation of Management Comments



The audit offers an analysis of LSC's         The OIG does not agree that the analysis
current office space and staffing levels,    contains major errors and inappropriate or
relevant space planning literature, and      incorrect references for the reasons stated
the history of how LSC's current offices     below.
came to be configured as they are. The
analysis contains three major errors and
several inappropriate or incorrect
references.


The first major error is in describing the   The report was not in error.            LSC
space that LSC occupies. The report          management did not provide the OIG a copy
concludes that LSC is currently              of the sublease until August 31, 2005, which
occupying 45,000 square feet of space        was after the draft report was issued. The
based on LSC's lease. However, on            sublease was signed on August 5, 2005 and
page 9 of the report, the OIG mentions       the sublease began on August 15, 2005. As
LSC subleasing space on the first floor      of the date of our draft report, August 9,
and refers to a reduction in the number      2005, and the date our field work ended, the
of vacant work spaces as a result. Yet       statements were correct.
the 2139 square feet involved in the
sublease are not then subtracted from        Having now been provided a copy of the
the 45,000 square feet leased by LSC.        sublease, we agree that management has
Thus the OIG has inappropriately             entered into a 5-year sublease for 2,739
included space not occupied by LSC.          square feet of space at $25.00 per square
                                             foot (with a 2 percent per year escalation
                                             clause).    As a result, management has
                                             reduced the amount of potential excess
                                             space and reduced the potential total
                                             overpayment for space needs that may
                                             occur by approximately $300,000, from
                                             $7.48 million to $7.18 million over LSC's 10-
                                             year lease.
                                                                              APPENDIX I

              DETAILED RESPONSE TO MANAGEMENT'S COMMENTS

        Mananement Comments                      Evaluation of Management Comments



Since the premise for calculating space       As stated earlier, the OIG does not agree that
per person is the division of the total       the numbers used in our calculation of average
space by the total number of staff, it        square foot per person were in error. With the
follows that, having made errors in both      updated information from the sublease that was
numbers, the calculation of space per         provided to us subsequent to issuing our draft
person in the report is wrong as well.        report, we calculate that the average amount of
Using the corrected figure of 42,861          space per person is 389 square feet.
square feet occupied by LSC, and
adding a conservative estimate of five        Without a valid space needs study, we cannot
temporary employees, consultants, and         agree with the management contention that five
interns who may be employed by LSC            work spaces should be permanently in place for
at any given time to the total of 110 full-   non-permanent, occasional employees.
time, permanent staff, the correct initial
figure for space per person is 373
square feet, not 409 as contained in
the audit.


The initial calculation of 373 square         The report is not in error.
feet per person reflects only the total
rental space divided by the number of         The GSA report concluded that 230 square feet
staff. It does not take into account          per person is an appropriate Government-wide
unusual needs of the organization. For        average for space use. That average includes
instance, LSC maintains a large print         work space, support space, circulation,
shop on the ground floor (2,135 square        collaborative space, amenities, storage, and
feet),    which    is    unusual    for       other special spaces.       The GSA report
organizations of LSC's size. LSC also         recommends that if a higher average cannot be
maintains a conference center on the          directly linked to agency mission and
third floor, with approximately 1600          corroborated through benchmarking with similar
square feet of conference room space          organizations, then the organization should
and approximately 1,200 square feet of        seriously consider a strategy to bring office
circulation space.     The conference         space per person down closer to the
center services Board committee               recommended overall average of 230 rentable
meetings, meetings of the entire staff,       square feet per person.
and multiple meetings at the same
time. When these unusual features are
                                                                         APPENDIX I

            DETAILED RESPONSE TO MANAGEMENT'S COMMENTS

       Manaqement Comments                 Evaluation of Management Comments



spread across the small number of        The intent of the GSA report and the OIG
staff, the square feet per person is    recommendation is for LSC to look objectively at
significantly increased.     For this   its i'unusual features" and determine whether
reason, GSA directs organizations to    they are truly required by its mission. The
consider their special needs in space   space analysis should answer the following
planning (Office Space Use Review,      question: Does LSC have a valid mission
GSA, 1997, page 21) rather than using   requirement for a 2,135 square foot print shop
only the simplistic average of square   and a 2,800 square foot conference center (in
feet per person.                        addition to the five other conference rooms), or
                                        are there other, less costly alternatives for
                                        meeting its needs?

                                        Just because LSC is currently "maintaining" a
                                        conference center, print shop, and other support
                                        spaces (five kitchen/pantries, one lunch room,
                                        two reception areas, 10 file rooms, and one
                                        reading room/library) does not necessarily mean
                                        LSC has a corresponding valid mission
                                        requirement for all such space. LSC maintained
                                        a conference center for Board meetings at the
                                        previous space on 750 First Street, N.E. but
                                        gave up the space and met its needs through
                                        alternative means. It is not inconceivable that
                                        an objective space study could conclude that
                                        similar decisions are warranted for some of its
                                        meeting or support space at the current location.
                                                                              APPENDIX I

             DETAILED RESPONSE TO MANAGEMENT'S COMMENTS

       Management Comments                    Evaluation of Manaqement Comments



Beyond the calculation errors, the audit   The audit report contains no calculation errors.
report is flawed by its reliance on the    LSC management is also not accurate in its
space guidelines written by GSA.           statement that "...the audit report is flawed by its
GSA, as the primary space acquisition      reliance on the space guidelines written by
agency for the federal government, has     GSA."
prepared a guideline for use by federal
agencies in making their space              Given that LSC management relied on no
planning decisions. While the OIG          recognized guidelines in determining its space
report acknowledges in the introduction    needs before leasing 45,000 square feet of
that LSC is not required to follow GSA     space and that LSC headquarters operations
guidelines, the report uses the            are funded with tax payers' dollars, we feel it is
guideline as a standard, even              appropriate to use the GSA guidelines as a
calculating potential "overpayment" for    starting point. The guidelines do not limit an
space based on it. Applying the GSA        organization's space necessary to accomplish
guideline to LSC to draw conclusions       valid mission requirements.        Rather, the
about overpayment for space needs is       guidelines provide a reasoned, rationale
inappropriate.                             business approach to controlling the second
                                           largest administrative cost of an organization.
                                           GSA recommends 230 square feet per person.
                                           Should an organization need more than this
                                           average, it should first articulate a mission
                                           requirement for the space and then validate the
                                           additional space through benchmarking.
                                                                              APPENDIX I

              DETAILED RESPONSE TO MANAGEMENT'S COMMENTS

        Manaqement Comments                     Evaluation of Management Comments



Moreover, in using the guideline, the        The GSA guidelines include a number of
OIG makes selective use of the space         benchmarking examples and it was not practical
planning document that accompanies           to include them in the report. All of the
the guideline.         While repeatedly      examples should be considered in a
referring to the guideline of 230 square     benchmarking analysis, especially those with
feet per person found in GSA's 1997          similar mission requirements.
Office Space Use Review (updated in
2002), the OIG fails to cite other            The GSA guidelines include the term,
relevant portions of that document. For       "comparable." Comparable does not simply
instance, on page 10 of the publication,     mean who you hire, but what they do, i.e. the
this guidance is given on benchmarking       organization's mission.     LSC management
of space: "For example, an agency that       suggests that LSC is '%omparable"to private DC
employs many attorneys may want to           law firms because they both hire attorneys.
benchmark itself against comparable           While true that LSC hires attorneys, the
private sector law firms to find the right   attorneys hired by private DC law firms practice
standard for comparison."                    law while those hired by LSC for the most part
                                             do not; therefore their missions may not be
                                             comparable.     In addition, if the hiring of
                                             attorneys were considered a valid point of
                                             comparison, LSC should also consider that a
                                             substantial percentage of the workforce of
                                             certain federal government agencies, such as
                                             the Department of Justice, is comprised of
                                             attorneys.


Instead of benchmarking LSC against          The LSC management response did not
private law firms in DC, the OIG uses        accurately characterize the OIG audit. The
as a benchmark for LSC the 230               scope of the audit did not include benchmarking
square feet standard that is a general       as LSC indicates but, instead, the report
guideline for the average government         recommended that LSC document its direct
worker.        As GSA recognized,            mission space requirement and corroborate this
organizations     should    benchmark        requirement      by       benchmarking     with
themselves       against     employers       organizations with similar missions.
employing similar staff.    The OIG,
rather than following GSA's advice,          LSC management implies that by obtaining
interviewed U.S. Postal Service staff        background information from the Postal Service,
for background on space management           we are comparing LSC to the Postal Service.
issues,     hardly    a    comparable        LSC management also states that the OIG was
organization to one employing many           not following GSA's advice by interviewing
attorneys.                                   Postal Service staff for background information.
                                                                          APPENDIX I

             DETAILED RESPONSE TO MANAGEMENT'S COMMENTS

       Management Comments                  Evaluation of Management Comments


                                         GSA provides no advice on who the OIG should
                                         interview for background information. Nowhere
                                         in the report do we compare LSC to the Postal
                                         Service or any other organization. Rather, the
                                         OIG recommends that management undertake
                                         the benchmarking analysis.

                                         It is prudent for the OIG to obtain background
                                         information. An organization that manages over
                                         30,000 properties of various sizes and assesses
                                         space needs on a daily basis is a valid choice
                                         for obtaining such information. Also, to correct
                                         LSC management's misstatement of fact, the
                                         Postal Service employs hundreds of attorneys.
                                         These attorneys are located in Postal law offices
                                         throughout the United States.


In fact, the space that LSC now          The response attempts to justify LSC's space by
occupies, 42,861 square feet, is close   citing a 2000 independent space planning study.
to the 40,311 square feet of space       That study was not a true space needs study.
recommended by the independent           As our report states, the scope of the services
space planning study performed by the    for the study did not include benchmarking or
outside consultant for LSC in 2000.      the application of specific space utilization
                                         guidelines or standards to determine an
                                         appropriate amount of space to meet LSC
                                         needs. Moreover, management did not mention
                                         that the study it referenced used a projected
                                         staff size of 122.
                                                                              APPENDIX I

              DETAILED RESPONSE TO MANAGEMENT'S COMMENTS

        Management Comments                     Evaluation of Manaqement Comments



Through the combination of calculation       The report did not make calculation errors and
errors and inappropriate benchmarking,       the audit did not include benchmarking.
the IG reaches the conclusion that           Because LSC's space exceeded the GSA-
"LSC could be overpaying for its space       recommended average square foot per person
needs up to $748,000 annually and            guideline, we recommended that this analysis
$7.48 million over the life of the 10-year   be performed.
lease." The conclusion is unwarranted
on its face, since the calculations are      Benchmarking is a management responsibility,
wrong.      It is further unwarranted        that should be done with comparable
because it is not based on the kind of       organizations only after a valid mission
benchmarked comparison which GSA             requirement has been articulated, neither of
recommends        that      organizations    which management has done.
perform, but instead is based on a
comparison to an             inappropriate   Subletting 2,139 square feet of space may
standard.                                    reduce the potential $7.48 million dollar
                                             overpayment by $300,000 to $7.18 million.



Other references also reflect omissions      The report did include a reference that space
that produce misleading impressions.         planning studies assumed staff would work in
For instance, in referencing the 1999        cubicles. On page 8, the draft report states,
and 2002 space needs studies, the            "However, eight staff who were supposed to be
report fails to note that these studies      housed in cubicles according to the space plan
assumed that some staff would work in        were occupying otherwise vacant offices.jJ



cubicles rather than in offices. LSC
management made a decision prior to          The OIG did not find documentary evidence of
moving to 3333 K Street that all full-       the management decision that all full-time staff
time staff would have private offices.       would have private offices at 3333 K Street nor
The shift from the use of cubicles to the    that such a decision was based on mission
use of offices affected the space            requirements.    Regardless, we believe the
planning, but no mention of this is          matter should be revisited in the new space
found in the report.                         needs study.
                                                                          APPENDIX I

             DETAILED RESPONSE TO MANAGEMENT'S COMMENTS

       Management Comments                   Evaluation of Management Comments



                                          Management's own comments support the audit
                                          position that management needs to conduct a
                                          valid space needs assessment. Whether offices
                                          or cubicles are used should be based on
                                          mission      requirements.       Management's
                                          representation that moving people from cubicles
                                          to offices affected space planning is correct;
                                          however, the mission was never articulated and
                                          validated through benchmarking. Ultimately, the
                                          decision had no effect on space need since LSC
                                          had already leased 45,000 square feet and had
                                          more than enough extra offices to change its
                                          space planning to give all permanent staff
                                          private offices.


On page 8 , the report references 28      The report stated that when the subleasing was
work spaces as vacant. These spaces       completed and staff relocated the number of
include 10 reserved for personnel         vacant work spaces would be 22. That number
vacancies that LSC expects to fill,       is correct.
seven that have been sublet, three that
are being used for storage, and one       The architectural and design firm that designed
that is not a workspace but a waiting     the LSC office space designated office space as
area in the executive offices. Rather     work space, support space, or meeting space.
than 28 vacant workspaces, there are      Our identification of vacant work space was
actually seven, and these are cubicles    based on the firm's documentation and
which were designed for temporary         drawings and our inspection of LSC's office
personnel.                                space.

                                          LSC's comment should be clarified as follows:
                                                LSC sublet six offices designated as work
                                                spaces and one file room, not seven work
                                                spaces.
                                                The three offices now used for storage
                                                were designed as work spaces.
                                                                            APPENDIX I

             DETAILED RESPONSE TO MANAGEMENT'S COMMENTS

       Management Comments                   Evaluation of Manaqement Comments



                                                 The "waiting area" was designed as a
                                                 work space with a cubicle. The cubicle
                                                 for this space was put in storage and the
                                                 area is now an open space.
                                                 The firm's design did not designate that
                                                 cubicles would be only used by
                                                 temporary personnel.


Conclusion

LSC will continue to follow good          Contrary to LSC management's comments, the
management practices with respect to      OIG does not believe that LSC has followed
space planning and space utilization.     good management practices with respect to
LSC's response and planned actions        space planning or utilization.     LSC did not
with    respect to  the    individual     determine LSC's true space needs based on
recommendations are set forth at the      mission requirements before entering into a
outset.                                   lease for 45,000 square feet of space.

However, the flaws in the audit's         In stating its case that the report has flaws, LSC
analysis are troubling.       By not      has not accurately represented the GSA
benchmarking LSC against appropriate      guidelines and the way the OIG applied them in
organizations, the OIG creates an         the report. As stated earlier, the OIG also
unrealistic    expectation  of      the   disagrees that the calculations are in error.
appropriate space standard for LSC.
After comparing LSC to the GSA            Since LSC management did not satisfactorily
guideline,   then     using   incorrect   analyze its space needs before it leased its
measures of space occupied and            current space, our report makes the point that it
number of staff, the OIG audit asserts    should now do so, especially in light of the fact
that LSC may be occupying "excessive      that the amount of space it leases and occupies
space" and making an "overpayment" of     exceeds the overall government average
rent.         These assertions are        without an articulation of mission requirements
unwarranted and based on significant      and benchmarking analysis. This space needs
exaggerations of the facts.               study should be performed in an objective
                                          manner. Management has agreed to do so.
                                          Yet based on management's comments, we
                                          have reservations concerning the ability of LSC
                                          management to conduct an objective space
                                          needs study.
  APPENDIX II


MANAGEMENT'S

 COMMENTS
  APPENDIX I1


MANAGEMENT'S

 COMMENTS
                                                                                             APPENDIX II
                                                                             Legal Sewices Corporation
                                                                          America's Partner For Eaual Justice




                                     MEMORANDUM


TO:           Kirt West
              Inspector General

FROM:         Helaine M. Barnett      &
              President

DATE:          September 9,2005

SUBJECT:      Response to Audit of LSC's Space Needs


        The Office of the Inspector General (OIG) submitted to LSC management a draft report
entitled "Audit of LSC's Space Needs" on August 9,2005. This document is management's
response to that draft.

        LSC's executive leadership is committed to the efficient and effective management of the
Corporation, including an economical and efficient use of office space. To that end, LSC has
been examining its use of space at 3333 K Street since early 2004. During the course of that
review, LSC has consolidated offices and sublet 2139 square feet. LSC will continue to review
its space needs, consolidate where appropriate, and sublet when possible.


Response to Recommendations

      Seven recommendations for space management are listed in the audit conducted by the
OIG. LSC's responses follow.

Recommendation 1: LSC disagrees with the recommendation to commission an independent
space needs assessment. LSC commissioned outside space needs analyses in 1998,2000 and
2002. The independent firm hired in 2002 assisted in space planning for the current building.
Using these previous analyses as guides, LSC will conduct an in-house review of its space needs
based on its mission.

Recommendation 2: After documenting its mission space requirements, LSC will benchmark
with organizations with similar missions and similar staffing, as recommended by the federal
government's General Services Administration (GSA).

Recommendation 3: Should LSC determine that it has excess space, LSC will seek to sublease
space as LSC has done this year. However, significant redesign of the existing office space is
unlikely to be economically viable. Modest modifications to space, such as removing a wall,
modifying lighting and HVAC controls, and building a new partition, are feasible and were done
in the area subleased this year. However, major redesign of the space at 3333 K Street NW is
not anticipated.
                                                                                             Page 2



Recommendation 4: If savings are generated by reducing space, the savings will be
appropriately redirected. However, by law, as the OIG should be aware, LSC may not move
funds from one account, such as the Management and Administration account from which the
rent is paid, to another, such as the Basic Field Program account which provides funding to LSC
grantees, without Congressional action.

Recommendation 5: LSC, as part of its budgeting and strategic planning processes, does make
staffing projections. Any projections made by LSC are subject to funding decisions made by
Congress. A "realistic" staff level projection for the next five years is an unrealistic expectation
when trying to project Congressional funding five years out. LSC made such projections five
years ago and used them in planning for office space. Congressional funding did not allow the
staff projections to be met. The OIG space audit both criticizes LSC for planning for space
based on those projections and asks LSC to make projections for the next five years. While LSC
will be making staff projections, LSC does not expect to be criticized in future OIG reports for
using projections, reasonable at the time, but for which Congress does not provide funding in
later years.

Recommendation 6: The LSC processes for developing space needs, for projecting staff levels,
and for preparing budget requests are being fully coordinated this year and will be so in the
future as well.

Recommendation 7: Space planning objectives are being incorporated into the LSC strategic
planning process.


Response to Analysis

        The audit offers an analysis of LSC's current office space and staffing levels, relevant
space planning literature, and the history of how LSC's current offices came to be configured as
they are. The analysis contains three major errors and several inappropriate or incorrect
references.

       The first major error is in describing the space that LSC occupies. The report concludes
that LSC is currently occupying 45,000 square feet of space based on LSC's lease. However, on
page 9 of the report, the OIG mentions LSC subleasing space on the first floor and refers to a
reduction in the number of vacant work spaces as a result. Yet the 2139 square feet involved in
the sublease are not then subtracted from the 45,000 square feet leased by LSC. Thus the OIG
has inappropriately included space not occupied by LSC.

         The second major error is in calculating the staff of LSC. LSC maintains 110 permanent,
full-time staff positions. While some positions may be vacant at any given time, LSC actively
seeks to fill vacant positions. As with many modern organizations, LSC also utilizes temporary
staff, consultants, and interns on a regular basis and believes it is appropriate to provide
designated office space for them as well. While the use of such temporary staff is acknowledged
by the OIG in a footnote on page 5, the report nevertheless uses a staff level of only 110 in
calculating space per person.
MEMORANDUM                                                                                     Page 3


        Since t h e premise for calculating space per person is the division of the total space by the
total number of staff, it follows that, having made errors in both numbers, the calculation of
space per person in the report is wrong as well. Using the corrected figure of 42,861 square feet
occupied by LSC, and adding a conservative estimate of 5 temporary employees, consultants,
and interns who may be employed by LSC at any given time to the total of 110 full-time,
permanent staff, the correct initial figure for space per person is 373 square feet, not 409 as
contained in the audit.

        The initial calculation of 373 square feet per person reflects only the total rentable space
divided by the number of staff. It does not take into account unusual needs of the organization.
For instance, LSC maintains a large print shop on the ground floor (2135 square feet), which is
unusual for organizations of LSC's size. LSC also maintains a conference center on the third
floor, with approximately 1600 square feet of conference room space and approximately 1200
square feet of circulation space. The conference center services Board committee meetings,
meetings of the entire staff, and multiple meetings at the same time. When these unusual
features are spread across the small number of staff, the square feet per person is significantly
increased. For this reason, GSA directs organizations to consider their special needs in space
planning (Ofice Space Use Review, GSA, 1997, page 21) rather than using only the simplistic
average of square feet per person.

       Beyond the calculation errors, the audit report is flawed by its reliance on the space
guidelines written by GSA. GSA, as the primary space acquisition agency for the federal
government, has prepared a guideline for use by federal agencies in making their space planning
decisions. While the OIG report acknowledges in the introduction that LSC is not required to
follow GSA guidelines, the report uses the guideline as a standard, even calculating potential
"overpayment" for space based on it. Applying the GSA guideline to LSC to draw conclusions
about overpayment for space needs is inappropriate.

        Moreover, in using the guideline, the OIG makes selective use of the space planning
document that accompanies the guideline. While repeatedly referring to the guideline of 230
square feet per person found in GSA's 1997 OfJice Space Use Review (updated in 2002), the
OIG fails to cite other relevant portions of that document. For instance, on page 10 of the
publication, this guidance is given on benchmarking of space: "For example, an agency that
employs many attorneys may want to benchmark itself against comparable private sector law
firms to find the right standard for comparison." Instead of benchmarking LSC against private
law firms in DC, the OIG uses as a benchmark for LSC the 230 square feet standard that is a
general guideline for the average government worker. As GSA recognized, organizations should
benchmark themselves against employers employing similar staff. The OIG, rather than
following GSA's advice, interviewed U.S. Postal Service staff for background on space
management issues, hardly a comparable organization to one employing many attorneys. In fact,
the space that LSC now occupies, 42,861 square feet, is close to the 40,3 11 square feet of space
recommended by the independent space planning study performed by the outside consultant for
LSC in 2000.

        Through the combination of calculation errors and inappropriate benchmarking, the IG
reaches the conclusion that "LSC could be overpaying for its space needs up to $748,000
annually and $7.48 million over the life of the 10-year lease." The conclusion is unwarranted on
its face, since the calculations are wrong. It is further unwarranted because it is not based on the
MEMORANDUM                                                                                   Page 4


kind of benchmarked comparison which GSA recommends that organizations perform, but
instead is based o n a comparison to an inappropriate standard.

        Other references also reflect omissions that produce misleading impressions. For
instance, in referencing the 1999 and 2002 space needs studies, the report fails to note that these
studies assumed that some staff would work in cubicles rather than in offices. LSC management
made a decision prior to moving to 3333 K Street that all full-time staff would have private
offices. The shift from the use of cubicles to the use of offices affected the space planning, but
no mention of t h i s is found in the report.

        On page 8, the report references 28 work spaces as vacant. These spaces include 10
reserved for personnel vacancies that LSC expects to fill, 7 that have been sublet, three that are
being used for storage, and one that is not a workspace but a waiting area in the executive
offices. Rather than 28 vacant workspaces, there are actually 7, and these are cubicles which
were designed f o r temporary personnel.


Conclusion

       LSC will continue to follow good management practices with respect to space planning
and space utilization. LSC's response and planned actions with respect to the individual
recommendations are set forth at the outset.

       However, the flaws in the audit's analysis are troubling. By not benchmarking LSC
against appropriate organizations, the OIG creates an unrealistic expectation of the appropriate
space standard for LSC. After comparing LSC to the GSA guideline, then using incorrect
measures of space occupied and number of staff, the OIG audit asserts that LSC may be
occupying "excessive space" and malung an "overpayment" of rent. These assertions are
unwarranted and based on significant exaggerations of the facts.




cc:    Ronald Merryman
